      Department of Homeland Security




      The State of Rhode Island’s Management of State
       Homeland Security Program and Urban Areas
         Security Initiative Grants Awarded During
                Fiscal Years 2008 Through 2010




OIG-13-16                                   December 2012

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                                 Washington, DC 20528 / www.oig.dhs.gov


                                         DEC 11 2012 
 
MEMORANDUM FOR:	             David J. Kaufman 
                             Acting Assistant Administrator 
                             Grant Programs Directorate 
                             Federal Emergency Management Agency 
 
FROM:	                       Anne L. Richards 
                             Assistant Inspector General for Audits 
 
SUBJECT:	                    The State of Rhode Island’s Management of State 
                             Homeland Security Program and Urban Areas Security 
                             Initiative Grants Awarded During Fiscal Years 2008 
                             Through 2010    
   
Attached for your action is our final report, The State of Rhode Island’s Management of 
State Homeland Security Program and Urban Areas Security Initiative Grants Awarded 
During Fiscal Years 2008 Through 2010.  We incorporated the formal comments from 
the Federal Emergency Management Agency’s Office of Policy and Program Analysis and 
the State of Rhode Island’s Emergency Management Agency in the final report.   
 
The report contains six recommendations aimed at improving the overall effectiveness 
of the State of Rhode Island’s management of State Homeland Security Program and 
Urban Areas Security Initiative Grants.  Your office concurred with all 
recommendations.  Based on information provided in your response to the draft report, 
we consider the recommendations open and resolved.  Once your office has fully 
implemented the recommendations, please submit a formal closeout letter to us within 
30 days so that we may close the recommendations.  The memorandum should be 
accompanied by evidence of completion of agreed‐upon corrective actions and of the 
disposition of any monetary amounts.
 
Consistent with our responsibility under the Inspector General Act, we are providing 
copies of our report to appropriate congressional committees with oversight and 
appropriation responsibility over the Department of Homeland Security.  We will post 
the report on our website for public dissemination. 
 
Please call me with any questions, or your staff may contact Mark Bell, Deputy Assistant 
Inspector General for Audits, at (202) 254‐4100.                                
                                         OFFICE OF INSPECTOR GENERAL
                                               Department of Homeland Security


   Table of Contents
   Executive Summary............................................................................................................. 1

   Background ........................................................................................................................ 2

   Results of Audit ................................................................................................................... 3

              Improvements Are Needed To Enhance the State of
              Rhode Island’s Grant Management Practices ........................................................ 3
              Recommendations ............................................................................................... 10
              Management Comments and OIG Analysis ......................................................... 11


   Appendixes
              Appendix A:           Objectives, Scope, and Methodology ........................................... 14
              Appendix B:           FEMA Management Comments to the Draft Report .................... 18
              Appendix C:           State of Rhode Island Management Comments to the
                                    Draft Report .................................................................................. 21
              Appendix D:           Description of Homeland Security Grant Program ....................... 25
              Appendix E:           Major Contributors to This Report ............................................... 26
              Appendix F:           Report Distribution ...................................................................... 27

   Abbreviations
              CFR                   Code of Federal Regulations
              DHS                   Department of Homeland Security
              FEMA                  Federal Emergency Management Agency
              FY                    fiscal year
              HSGP                  Homeland Security Grant Program
              NPD                   National Preparedness Directorate
              OIG                   Office of Inspector General
              SAA                   State Administrative Agency
              SHSP                  State Homeland Security Program
              SOP                   standard operating procedures
              UASI                  Urban Areas Security Initiative




www.oig.dhs.gov                                                                                                                 OIG-13-16
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Executive Summary
   Public Law 110-53, ImplementingfRecommendationsfoffthef9/11fCommissionfActfoff
   2007, as amended, requires the Department of Homeland Security (DHS) Office of
   Inspector General (OIG) to audit individual States’ management of State Homeland
   Security Program and Urban Areas Security Initiative grants. This report responds to the
   reporting requirement for the State of Rhode Island.

   The objectives of the audit were to determine whether the State distributed and spent
   State Homeland Security Program and Urban Areas Security Initiative grant funds
   (1) effectively and efficiently and (2) in compliance with applicable Federal laws and
   regulations. We also addressed the extent to which grant funds enhanced the State’s
   ability to prevent, prepare for, protect against, and respond to natural disasters, acts of
   terrorism, and other manmade disasters.

   The State was awarded $35,209,566 in Homeland Security Grant Program funds from
   fiscal years 2008 to 2010. This included $33,851,300 in State Homeland Security
   Program and Urban Areas Security Initiative grants that were subawarded to a total of
   one grantee and 48 subgrantees. Among the State’s subgrantees are cities, towns, and
   State agencies.

   Generally, the State of Rhode Island distributed and spent the awards effectively,
   efficiently, and in compliance with applicable laws and regulations. To its credit, the
   State’s desk monitoring has succeeded in catching and correcting some noncompliance.
   The State has also established effective working groups for communicating with and
   providing guidance to subgrantees. However, improvements are needed in the
   following areas:

   •	   Developing a comprehensive strategy with measurable objectives;
   •	   Developing a performance measurement system to assess emergency preparedness;
   •	   Complying with procurement and inventory requirements; and
   •	   Strengthening onsite monitoring activities to ensure subgrantee compliance with
        grant requirements.

   These issues exist because the Federal Emergency Management Agency (FEMA) and the
   Rhode Island Emergency Management Agency have not provided sufficient guidance
   and oversight for the grant process. We made six recommendations for FEMA to initiate
   improvements which, if implemented, should help strengthen grant program
   management, performance, and oversight. FEMA concurred with all six
   recommendations.


www.oig.dhs.gov                                 1                                   	    OIG-13-16
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Background
   DHS provides Federal funding through the Homeland Security Grant Program (HSGP) to
   help State and local agencies enhance capabilities to prevent, deter, respond to, and
   recover from terrorist attacks, major disasters, and other emergencies. Within DHS,
   FEMA is responsible for administering the HSGP. FEMA supports preparedness by
   developing policies, ensuring that adequate plans are in place and validated, defining
   capabilities required to address threats, providing resources and technical assistance to
   States, and synchronizing preparedness efforts throughout the Nation. Appendix D
   provides a detailed description of the interrelated grant programs that constitute the
   HSGP.

   HSGP guidance requires the Governor of each State and Territory to designate a State
   Administrative Agency (SAA) to apply for and administer grant funding awarded under
   the HSGP. The SAA is the only entity eligible to formally apply for HSGP funds. FEMA
   requires that the SAA be responsible for obligating grant funds to local units of
   government and other designated recipients within 45 days after the award of funds.
   The Rhode Island Emergency Management Agency is the SAA designated to provide
   administrative oversight over the HSGP. This includes responsibility over grant funding
   for State and local disbursement, statewide interoperability, the intelligence fusion
   center, and emergency plans and response teams.

   The State of Rhode Island was awarded $35,209,566 in HSGP funds from fiscal years
   (FYs) 2008 through 2010. This included $33,851,300 in State Homeland Security
   Program (SHSP) and Urban Areas Security Initiative (UASI) grants that were subawarded
   to 48 subgrantees and the SAA. The State’s subgrantees are cities, towns, and State
   agencies. Appendix A provides a list of the 48 subgrantees.

   Public Law 110-53, ImplementingfRecommendationsfoffthef9/11fCommissionfActfoff
   2007, as amended, requires DHS OIG to audit individual States’ management of SHSP
   and UASI grants. This report responds to the reporting requirement for the State of
   Rhode Island. Appendix A provides details on the objectives, scope, and methodology of
   this audit.




www.oig.dhs.gov                                2                                       OIG-13-16
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Results of Audit
           Improvements Are Needed To Enhance the State of Rhode Island’s
           Grant Management Practices

           Generally, the State of Rhode Island distributed and spent the grant awards
           efficiently, effectively, and in compliance with applicable laws and regulations.
           However, improvements are needed in the following areas: developing a
           comprehensive strategy with measurable objectives, developing a performance
           measurement system to assess emergency preparedness, complying with
           procurement and inventory requirements, and strengthening onsite monitoring
           activities to ensure subgrantee compliance with grant requirements.

           These issues exist because FEMA and the Rhode Island Emergency Management
           Agency need to provide more guidance and oversight for the grant process.

           Security Strategy Objectives

           The State Homeland Security Strategy did not provide measurable goals and
           objectives with a basis to evaluate the progress it has made on its preparedness,
           prevention, response, and recovery capabilities. The 2009 State Homeland
           Security Strategy included five goals, 37 objectives, and 147 implementation
           steps. The strategy’s goals and objectives did not include target dates of
           achievement. As a result, the State is unable to demonstrate quantifiable
           improvement and accomplishments to reduce its vulnerability to terrorism and
           natural disasters.

           In July 2005, FEMA’s National Preparedness Directorate (NPD) released guidance
           to the States on how to align their State Homeland Security Strategy with the
           National Preparedness Goal. The DepartmentfoffHomelandfSecurityfStatefandf
           UrbanfAreafHomelandfSecurityfStrategyfGuidancefonfAligningfStrategiesfwithfthef
           NationalfPreparednessfGoal requires States to include measurable goals and
           objectives in their strategies, and mandates that an objective should be—

           •	 Specific, detailed, particular, and focused—helping to identify what is to be
              achieved and accomplished;

           •	 Measurable—quantifiable, providing a standard for comparison, and
              identifying a specific achievable result;




www.oig.dhs.gov                                3                                  	     OIG-13-16
                                  OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


           •	 Achievable—not beyond a State, region, jurisdiction, or locality’s ability;

           •	 Results-oriented—identifying a specific outcome; and

           •	 Time-limited—having a target date to identify when the objective will be
              achieved.

           Table 1 provides examples of shortcomings in the State’s Strategy objectives.

                        Table 1. Shortcomings in the State’s Strategy Objectives

                   Goal                            Objective                       Shortcomings
           1. Prepare for all-     1.1 Planning: Preparedness plans               The objective is
           hazards response        incorporate an accurate hazard analysis and    not—
           missions.               risk assessment and ensure that capabilities   •	 Specific
                                   required to prevent, protect, and mitigate     •	 Measureable
                                   against, respond to, and recover from          •	 Time-limited
                                   terrorist attacks and catastrophic natural
                                   disasters are available when and where they
                                   are needed.
           1. Prepare for all-     1.4 Community Preparedness and                 The objective is
           hazards response        Participation: There is a structure and a      not—
           missions.               process for ongoing collaboration between      • Specific
                                   government and nongovernment resources         • Measureable
                                   at all levels.                                 • Time-limited
           2. Prevent, preempt,   2.2 Intelligence Analysis and Production:      The objective is
           and deter acts of      Timely, accurate, and actionable               not—
           terrorism.             intelligence/information products are          •	 Specific
                                  produced in support of prevention,             •	 Measureable
                                  awareness, deterrence, response, and           •	 Time-limited
                                  continuity planning operations.
           4. Respond in an       4.2 Emergency Operations Center                The objective is
           immediate, effective, Management: The event is effectively            not—
           and coordinated        managed through multiagency coordination       •	 Specific
           manner, focused on     for a preplanned or no-notice event through    •	 Measureable
           the victims of the     the Emergency Operations Center                •	 Time-limited
           attack.                Management.
           Source: DHS OIG analysis of Rhode Island’s 2011 State Homeland Security Strategy.


           According to FEMA and State officials, FEMA has not provided comments on the
           State’s Homeland Security Strategies to ensure that they meet FEMA guidance
           and include measurable goals and objectives, which contributed to the identified
           shortcomings. For example, the State was not aware that it was required to
           develop target dates for completing objectives in the SHSP Strategy. An NPD


www.oig.dhs.gov                                       4                                     	        OIG-13-16
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           Senior Policy Analyst also indicated that moving forward, FEMA plans to issue
           improved strategy guidance and develop a process for providing feedback to
           States on their strategies. NPD plans to release the updated guidance on
           strategic planning by January 2013.

           Performance Measures

           Rhode Island does not have sufficient performance measures to use as a basis
           for determining progress toward its security strategy goals and objectives.
           Although the State has attempted to measure the results of SHSP and UASI funds
           through a variety of reports, performance assessments, and strategy plans, it has
           not gathered results-oriented data that can be measured to show the impact of
           the grant funds.

           ThefGovernmentfPerformancefandfResultsfActfoff1993 initiated program
           performance reform across the Federal Government by requiring all agencies to
           set program goals, measure program performance against those goals, and
           report publicly on their progress. FEMA’s StatefandfUrbanfAreafHomelandf
           SecurityfStrategyfGuidancefonfAligningfStrategiesfwithfthefNationalfPreparednessf
           Goal provides the States with emergency preparedness priorities and target
           capability needs; however, it does not give them specific guidance for developing
           performance measures.

           Congress has recognized that FEMA’s guidance has not assisted the States with
           developing adequate performance measures. As a result, under Public Law 111-
           271, Congress required the National Academy of Public Administration to assist
           FEMA with a plan that would require a specific timetable for developing
           quantifiable performance measures and metrics to assess the effectiveness of
           the grant programs.

           The State and the subgrantees have attempted to demonstrate the positive
           affect of grant-funded projects. For example, the State’s 2010 Performance and
           Accountability Report discussed its accomplishments toward satisfying mission
           requirements made possible by grant funding. UASI grants enabled nine urban
           area communities to purchase equipment and conduct planning activities that
           would further strengthen local schools. The UASI School Security Initiative
           supplied security cameras and enhanced door locks, and established the
           “beSafe” program for schools to have standardized plans to respond to all-
           hazard events.




www.oig.dhs.gov                                5                                      OIG-13-16
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           Without performance measures and quantifiable evidence, however, the State is
           unable to demonstrate how SHSP and UASI grants have enhanced its ability to
           prevent, prepare for, protect against, and respond to natural disasters, acts of
           terrorism, and other manmade disasters.

           Procurement Requirements

           The State and subgrantees did not ensure that Federal regulations were followed
           for procurements of equipment and services with HSGP funds. We identified
           several instances of noncompliance with grant requirements concerning cost
           analysis, quotes, and poor record keeping:

           •	 Cost Analysis – One subgrantee procured services totaling $250,000 through
              a single-source vendor. The subgrantee provided a sole-source justification
              for the contract, explaining that the vendor was chosen because of its
              extensive knowledge of the State’s emergency systems. The subgrantee
              could not provide a cost analysis as required.

           •	 Quotes – A subgrantee did not retain quotes for a 2008 Sierra pickup truck
              procured with FY 2008 SHSP funds. Because of insufficient documentation,
              we could not determine whether the $35,399 purchase was acquired under
              full and open competition.

           •	 Poor Record Keeping – Three subgrantees were unable to provide purchase
              and procurement documentation such as invoices and purchase orders for
              equipment purchases totaling $186,179.

           Within the Code of Federal Regulations (CFR), 44 CFR 13.36, Procurement,
           provides uniform administrative requirements for grants and cooperative
           agreements awarded to State and local governments. Federal procurement
           regulations direct that grantees and subgrantees should—

           •	 Acquire equipment and services under full and open competition;

           •	 Conduct cost analyses to ensure that prices obtained through
              noncompetitive procurements are fair and reasonable;

           •	 Use noncompetitive procurement only when award of a contract is infeasible
              under small purchase procedures, sealed bids, or competitive proposals and
              �	 The item is only available from a single source, or



www.oig.dhs.gov                               6                                 	     OIG-13-16
                                OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


                  �	 Public emergency will not permit a competitive purchase, or
                  �	 The awarding agency authorizes noncompetitive proposals, or
                  �	 After solicitation of a number of sources, competition is determined
                     inadequate; and

           •	 Maintain records sufficient to describe the significant history of
              procurement. These records will include, but are not necessarily limited to,
              rationale for the method of procurement, selection of contract type,
              contractor selection or rejection, and the basis for the contract price.

           The questionable procurement practices we identified can be attributed to staff
           turnover and the State’s limited oversight of the procurement area.

           Compliance with procurement requirements is necessary to ensure that the
           grant funds provide equipment or services at reasonable prices. Without quotes,
           cost analysis, and proper record keeping, the State cannot be assured that funds
           were spent efficiently and effectively and at lowest cost to the government.

           Inventory Requirements

           The State and the subgrantees did not always comply with grant inventory or
           property record requirements. 44 CFR 13.32(d), Management Requirements,f
           establishes procedures for managing equipment (including replacement
           equipment), whether acquired in whole or in part with grant funds, and includes
           the following minimum requirements:

           •	 Property records must be maintained and include the property’s description,
              identification number, source of the property, title holder, acquisition date,
              cost and percentage of Federal funds used in the cost, location, use and
              condition, and ultimate disposition.

           •	 A physical inventory of the property must be taken and the results reconciled
              with the property records at least every 2 years.

           •	 An inventory control system must be developed to ensure that adequate
              safeguards are in place to prevent loss, damage, or theft of the property.
              Any loss, damage, or theft shall be investigated.

           FEMA grant guidance requires subgrantees, when practicable, to prominently
           mark any equipment purchased with grant funding with the statement



www.oig.dhs.gov                                   7                                 	       OIG-13-16
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           “Purchased with funds provided by the U.S. Department of Homeland Security.”
           We visited the State and 21 subgrantee sites, and conducted inventory reviews
           for the State and 12 subgrantees that had purchased equipment with grant
           funds. We identified inventory control violations and noncompliance with grant
           requirements for the State and all 12 subgrantees. For example,

           •	 Two of the 13 did not maintain an inventory list or other type of inventory
              control system.

           •	 None of the 13 maintained an inventory list with the six elements required
              by 44 CFR 13.32 for adequate property records: cost, description,
              identification number, title holder, location, and disposition data (disposal
              date or sale prices).

           •	 Eight of the 13 did not conduct a physical inventory every 2 years.

           •	 Twelve of the 13 did not mark equipment with the statement “Purchased
              with funds provided by the U.S. Department of Homeland Security.”

           One subgrantee was unable to locate a $7,800 infrared scope used to search for
           people trapped under debris. The equipment appeared on the inventory list;
           however, the location information was missing. After several attempts to locate
           this item over a 4-month period, the subgrantee had to declare the item missing
           and file a report with the local authorities.

           We identified a recurring issue of subgrantees failing to identify and mark
           equipment. The absence of identification markers made it difficult to ensure
           that the equipment corresponded to the inventory list and was purchased with
           DHS grants. Subgrantee personnel said that they were not aware of some of the
           Federal property management requirements outlined in FEMA’s grant guidance.

           Without adherence to inventory management requirements, the State cannot
           ensure that assets procured with grant funds are adequately safeguarded to
           prevent loss, damage, or theft, and used as intended. The State’s ability to
           prevent, prepare for, protect against, and respond to all-hazard situations is
           diminished by subgrantees’ inadequate inventory record keeping and
           maintenance.




www.oig.dhs.gov                                 8                                   	   OIG-13-16
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           Subgrantee Program Monitoring

           State monitoring efforts did not ensure subgrantee compliance with Federal
           grant procurement and inventory requirements. Office of Management and
           Budget Circular A-133, Compliance Supplement, Part 3-M, requires grantees to
           monitor subgrantees’ use of Federal awards through reporting, site visits, regular
           contact, or other means. 44 CFR 13.40(a), Monitoring and Reporting Program
           Performance, requires grantees to provide day-to-day management of all grant-
           and subgrantee-supported activities and ensure that subgrantees comply with
           applicable Federal requirements and achieve program performance goals.

           The State has improved subgrantee monitoring, but additional focus is needed
           on monitoring active grants to ensure subgrantee compliance with requirements.
           The SAA consists of a Grant Manager, a Grant Coordinator, and a Grant
           Compliance Officer. According to one SAA official, in August 2009, the State
           created a subgrantee monitoring position and subsequently hired a full-time
           Grant Compliance Officer. The officer said he has regular contact with
           subgrantees and monitors open grants through ad hoc onsite reviews, quarterly
           reports, and desk monitoring. He monitors closed grants through ad hoc onsite
           reviews.

           The desk monitoring has succeeded in catching and correcting some
           noncompliance. For instance, in May 2010, the State completed a desk
           monitoring review that revealed that nine subgrantees had received an
           emergency notification system but did not have any documentation to show that
           they took custody of the equipment, nor where the equipment was located.
           However, monitoring shortfalls still exist. Shortfalls include the lack of a
           monitoring plan, including a schedule for monitoring subgrantees, and a lack of
           staff resources to monitor active grants.

           The State has established effective subgrantee working groups, which allow the
           State another means of overseeing and administering grant funds. Through
           working groups, the State has learned of upcoming challenges and has been able
           to proactively manage the grants. For example, in 2011, the State learned that a
           subgrantee was experiencing financial hardship and was headed toward
           bankruptcy. The State UASI working group worked with the subgrantee to
           quickly reallocate its grant for a rail security project to another subgrantee.
           Through working groups, the State also learned about subgrantees not meeting
           agreed-upon training requirements and quickly deobligated their grant funds.




www.oig.dhs.gov                                9                                       OIG-13-16
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


           According to an SAA official, more onsite monitoring had not been done because
           of limited staff. The subgrantees explained that they were not monitoring for
           compliance owing to staff turnover, lack of knowledge of grant requirements,
           and lack of resources.

           If subgrantees are not monitored, FEMA and the State cannot be sure that grant
           funds are being spent and managed in compliance with procurement and
           inventory requirements.

           Recommendations

           We recommend that the Federal Emergency Management Agency Assistant
           Administrator, Grant Programs Directorate:

           Recommendation #1:

           Assist the Rhode Island Emergency Management Agency with revising the State
           Homeland Security Strategy to include—

                  •	 Specific, measurable, and results-oriented objectives in compliance with
                     the most recent DHS guidance; and
                  •	 Objective completion dates that are consistently listed in the strategies
                     and are current and realistic for achieving each objective.

           Recommendation #2:

           Expedite the development of adequate performance measures to assist the
           Rhode Island Emergency Management Agency with measuring and assessing all
           of the State’s capabilities and preparedness.

           Recommendation #3:

           Require the Rhode Island Emergency Management Agency to provide training to
           subgrantees on how to use and comply with Federal, State, and local
           procurement and inventory requirements.

           Recommendation #4:

           Require the Rhode Island Emergency Management Agency to ensure that
           subgrantees develop and sustain an inventory control system in accordance with
           Federal requirements.


www.oig.dhs.gov                                   10                                	     OIG-13-16
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           Recommendation #5:

           Require the Rhode Island Emergency Management Agency to develop a program
           monitoring schedule and plan to focus monitoring efforts on active grants.

           Recommendation #6:

           Require the Rhode Island Emergency Management Agency to conduct onsite
           monitoring of grants to correct deficiencies pertaining to procurement and
           inventory noncompliance with Federal, State, and local grant requirements.

           Management Comments and OIG Analysis

           FEMA appreciated our audit work and the opportunity to comment on the draft
           report. The findings in the report will be used to strengthen the effectiveness
           and efficiency of FEMA’s execution and measurement of the subject grant
           programs. The agency recognizes the need to continue to improve the process,
           including addressing the recommendations raised in this report. A summary of
           FEMA’s and the State’s responses to each recommendation and our analysis
           follows.

           FEMA’s and the State’s Response to Recommendation #1: FEMA and the State
           concurred with the intent of this recommendation. NPD, the FEMA entity
           responsible for the Homeland Security Strategy and its guidance, plans to release
           updated guidance on strategic planning by January 2013. FEMA’s Grant
           Programs Directorate will require the Rhode Island Emergency Management
           Agency Director to revise Rhode Island’s Homeland Security Strategy to comply
           with the revised NPD guidelines.

           OIG Analysis: We consider FEMA’s actions responsive to the intent of
           Recommendation 1, which is resolved and open. This recommendation will
           remain open pending confirmation that FEMA has released updated guidance for
           the Homeland Security Strategy, and that the Rhode Island Emergency
           Management Agency’s Homeland Security Strategy has been revised to comply
           with the new guidelines.

           FEMA’s and the State’s Response to Recommendation #2: FEMA and the State
           concurred with the intent of this recommendation. The FEMA NPD is currently
           developing processes to measure core capabilities in accordance with the
           National Preparedness Goal pursuant to the Presidential Policy Directive. The
           State will complete the Threat and Hazard Identification and Risk Assessment


www.oig.dhs.gov                               11                                      OIG-13-16
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           and submit it to FEMA by December 31, 2012. This assessment will be used to
           create a baseline and targets for FY 2013 and beyond. FEMA has also redesigned
           the State Preparedness Report, which will help States demonstrate and track
           preparedness improvement over time.

           OIG Analysis: We consider FEMA’s actions responsive to the intent of
           Recommendation 2, which is resolved and open. This recommendation will
           remain open pending confirmation that the State has submitted its Threat and
           Hazard Identification and Risk Assessment to FEMA. FEMA must also provide
           documentation supporting the actions taken to develop performance measures
           from the State’s completed Threat and Hazard Identification and Risk
           Assessment. In addition, FEMA must document completion of the redesigned
           State Preparedness Report.

           FEMA’s and the State’s Response to Recommendations #3 and #4: FEMA and
           the State concurred with these recommendations. FEMA will require the Rhode
           Island Emergency Management Agency Director to develop and implement
           property management and inventory standard operating procedures (SOP)
           within 90 days of receipt of this report. The procedures will adhere to 44 CFR
           13.32 as well as State government policies and procedures. The implementation
           plan for the SOP must involve training for subgrantees. To further support the
           subgrantees, FEMA will require the Rhode Island Emergency Management
           Agency to develop resources that will assist subgrantees in their compliance with
           Federal, State, and local procurement requirements.

           OIG Analysis: We consider FEMA’s actions responsive to the intent of
           Recommendations 3 and 4, which are resolved and open. These
           recommendations will remain open pending confirmation that the State has
           developed and implemented the SOP and has provided training and resources to
           the subgrantees in complying with property management and inventory policies,
           as well as Federal, State, and local procurement requirements.

           FEMA’s and the State’s Response to Recommendation #5: FEMA and the State
           concurred with this recommendation. FEMA will require the Rhode Island
           Emergency Management Agency Director to submit a revised HSGP monitoring
           policy within 90 days of receipt of this report. The updated policy should include
           a clear method for selecting subgrantees for desk monitoring and onsite visits;
           the number or frequency of monitoring visits each year for both SHSP grants and
           UASI grants; a sample monitoring schedule to encompass the next 12 months;
           the protocols to be followed during the monitoring visits, including the materials



www.oig.dhs.gov                                12                                      OIG-13-16
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           and processes to be reviewed; and a process for documenting and resolving any
           deficiencies identified.

           The Rhode Island Emergency Management Agency has a formal monitoring
           policy in place that has been reviewed by FEMA and meets the Federal
           requirements. The State will develop and institute a formal yearly calendar of
           scheduled site monitoring for subrecipients and will attempt to increase the
           monitoring commensurate with the limited time and staff available.

           OIG Analysis: We consider FEMA’s actions responsive to the intent of
           Recommendation 5, which is resolved and open. This recommendation will
           remain open pending confirmation that FEMA has provided the revised HSGP
           monitoring policy, including a monitoring schedule and plan for the Rhode Island
           Emergency Management Agency.

           FEMA’s and the State’s Response to Recommendation #6: FEMA and the State
           concurred with this recommendation. FEMA will require the Rhode Island
           Emergency Management Agency Director to submit a revised HSGP monitoring
           policy within 90 days of receipt of this report. The updated policy should include
           a clear method for selecting subgrantees for desk monitoring and onsite visits;
           the number or frequency of monitoring visits each year for both SHSP grants and
           UASI grants; a sample monitoring schedule to encompass the next 12 months;
           the protocols to be followed during the monitoring visits, including the materials
           and processes to be reviewed; and a process for documenting and resolving any
           deficiencies identified. The State intends to enhance its enforcement efforts
           through better education and more monitoring of the subgrantees.

           OIG Analysis: We consider FEMA’s actions responsive to the intent of
           Recommendation 6, which is resolved and open. This recommendation will
           remain open pending confirmation that FEMA has provided a revised HSGP
           monitoring policy, including a process for documenting and resolving deficiencies
           identified on monitoring site visits, which has been completed by the Rhode
           Island Emergency Management Agency Director.




www.oig.dhs.gov                                13                                      OIG-13-16
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix A
   Objectives, Scope, and Methodology
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the HomelandfSecurityfActfoff2002 (Public Law 107-296) by amendment
   to the InspectorfGeneralfActfoff1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   This report provides the results of our work to determine whether the State of Rhode
   Island spent SHSP and UASI grant funds (1) effectively and efficiently and (2) in
   compliance with applicable Federal laws and regulations. We also addressed the extent
   to which funds enhanced the State’s ability to prevent, prepare for, protect against, and
   respond to natural disasters, acts of terrorism, and other manmade disasters.

   The HSGP and its five interrelated grant programs, State Homeland Security Program,
   Urban Areas Security Initiative, Operation Stonegarden, Citizen Corps Program, and
   Metropolitan Medical Response System Program, fund a range of preparedness
   activities, including planning, organization, equipment purchase, training, exercises, and
   management and administration costs. The State of Rhode Island did not receive
   Operation Stonegarden funding in 2008, 2009, or 2010.

   The scope of the audit included only the SHSP and UASI grant awards for FYs 2008,
   2009, and 2010. We reviewed the State’s plans to improve preparedness and all-
   hazards response, the goals set within those plans, the measurement of progress
   toward the goals, and the assessments of performance improvement that result from
   this activity.

   The scope included the assessment of these activities within the context of risk to
   determine if the State’s plans produced strategic performance improvements related to
   the areas of highest risk rather than merely producing improvements in a broader sense
   (see table 2).




www.oig.dhs.gov                                14                                       OIG-13-16
                                     OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


                  Table 2: State of Rhode Island’s Homeland Security Grant Program

            Funded Activity              FY 2008       FY 2009        FY 2010          Total

   State Homeland Security Program       $6,170,000    $6,524,500     $6,613,200     $19,307,700

   Urban Areas Security Initiative       $5,015,000    $4,764,300     $4,764,300     $14,543,600

                  Total                $11,185,000    $11,288,800 $11,377,500        $33,851,300

   Citizen Corps Program                  $139,773         $139,520    $119,112        $398,405

   Metropolitan Medical Response
                                          $321,221         $321,221    $317,419        $959,861
   System Program

              Grand Total              $11,645,994    $11,749,541 $11,814,031        $35,209,566

   Source: DHS OIG.



   We judgmentally selected 21 out of the 48 subgrantees in addition to the SAA that had
   been awarded funding in FYs 2008, 2009, and 2010 to visit. We tested grant assets and
   verified inventory controls review based on the following variables:

   •	 Subgrantee financial status (i.e., filed for bankruptcy);
   •	 Subgrantee geographic location;
   •	 Items categorized under the areas of Planning, Organization, Equipment, Training,
      Exercise activities, and Operational support systems;
   •	 Grant allocation amounts;
   •	 Reimbursement/invoice amounts;
   •	 Documentation discrepancies based on preliminary review at SAA; and
   •	 Partial payments over multiple years.

   The site visits were conducted between January and March 2012. In accordance with
   the audit guide, auditors met with FEMA officials, the SAA, State agency offices, and first
   responders of cities/towns that received SHSP and UASI funding. At each location, we
   interviewed responsible officials, reviewed documentation supporting State and
   subgrantee management of grant funds, and inspected selected equipment procured
   with grant funds. We developed an asset verification tool to document the transactions
   chosen for review, results of review, and details related to training and exercises to
   ensure that requirements had been met. Table 3 lists all the subgrantees and shows the
   21 subgrantees reviewed.




www.oig.dhs.gov                                       15                                       	   OIG-13-16
                                    OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security

                                      Table 3: State of Rhode Island Subgrantees
                                 Subgrantee                               Visited   SHSP   UASI
    1.    Barrington                                                                  '
    2.    Bristol                                                                     '
    3.    Burrillville                                                       '        '
    4.    Central Falls                                                      '        '     '
    5.    Charlestown                                                        '        '
    6.    Coventry                                                                    '
    7.    Cranston                                                                    '     '
    8.    Cumberland                                                                  '
    9.    East Greenwich                                                              '
    10.   East Providence                                                    '        '     '
    11.   Foster                                                                      '
    12.   Glocester                                                                   '
    13.   Hope Valley                                                        '        '
    14.   Hopkinton                                                                   '
    15.   Jamestown                                                                   '
    16.   Johnston                                                                    '     '
    17.   Kingston                                                           '        '
    18.   Lincoln                                                                     '
    19.   Little Compton                                                     '        '
    20.   Middletown                                                                  '
    21.   Narragansett                                                                '
    22.   Newport                                                            '        '     '
    23.   New Shoreham                                                                '
    24.   North Kingstown                                                    '        '
    25.   North Providence                                                            '     '
    26.   North Smithfield                                                            '
    27.   Pawtucket                                                          '        '     '
    28.   Portsmouth                                                                  '
    29.   Providence                                                         '        '     '
    30.   Rhode Island Department of Environmental Management                         '
    31.   Rhode Island Department of Health                                           '
    32.   Rhode Island Disaster Medical Assistance Team                               '
    33.   Rhode Island 9-1-1 Uniform Emergency Telephone System              '        '
    34.   Rhode Island National Guard                                                 '
    35.   Rhode Island Office of the State Fire Marshal                      '        '     '
    36.   Rhode Island State Police                                          '        '     '
    37.   Richmond                                                                    '
    38.   Scituate                                                           '        '
    39.   Smithfield                                                                  '
    40.   South Kingstown                                                    '        '
    41.   T.F. Green Airport Fire/Rescue                                              '
    42.   Tiverton                                                                    '
    43.   Warren                                                             '        '
    44.   Warwick                                                                     '     '
    45.   Westerly                                                           '        '
    46.   West Greenwich                                                     '        '
    47.   West Warwick                                                       '        '     '
    48.   Woonsocket                                                         '        '     '
   Source: DHS OIG.



www.oig.dhs.gov                                          16                                OIG-13-16
                           OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


   We conducted this performance audit between November 2011 and May 2012 pursuant
   to the InspectorfGeneralfActfoff1978, as amended, and according to generally accepted
   government auditing standards. Those standards require that we plan and perform the
   audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
   findings and conclusions based upon our audit objectives. We believe that the evidence
   obtained provides a reasonable basis for our findings and conclusions based upon our
   audit objectives.




www.oig.dhs.gov                             17                                     OIG-13-16
                                       OFFICE OF INSPECTOR GENERAL
                                             Department of Homeland Security


   Appendix B
   FEMA Management Comments to the Draft Report
                                                                               u.s.   I)cr"rtm~ntof Il onw: l.. no.l S.::e •• ity
                                                                                            W:u;hin l!ton. DC 20Jil




                                                                      OCT 1 9 2Ul2



             MEMORAI\' DUM FOR:              Anne L. Richards
                                             Assistant Inspector General for Audits
                                             Office of Inspector General

             FROM,
                                             Director            rr
                                             David J. Kaufman !P/i /
                                                                   L/"

                                             Office of Policy and Program Analysis

             SUBJECT,                        Response to O J" Draft Report, The S{(J(e o/Rhode Island'~i
                                             Management v/Slale Homeland Security Proxram and Urban Areas
                                             Security Initiafive G/"(fnl.~ AII/{n-ded 0111";l1g Fisca/ Years 2008 through
                                             2010 ( .l ob Code: 12-095-AUD-FEMA)


             Thank you for the opponunilY to comment on the subject dral\ report. The findings in ,the report will
             be used to strengthen thc effectiveness and efficiency of how wc execute and measure our programs.
             We reco£nize the need to continue to improve tne process, including addressing the
             recommendations raised in this report. Our respollSCS to the recolllUlemiatium; arc as fo llows :

             We recommend that the r edcral Emcrgency Management Agency Assistalll Admi nistrator, Grant
             Programs Directorate:

             Recomme[]dation #1 :
             Assist the RJlOde Island Emergency Management Agency with rt:v isi ng the Statt: Homeland Securi ty
             Strategy to include :
             - Specific, measurable. and resu lts-oriented objectives in compliance with the ilIo.s1 reccnt DHS
             guidance; and
             - Objectivc complction dates that are consistentl y listed in the strategies and alc current and reali sti<.:
             for achieving each object ive.

             FEMA H.esponse:
             FEMA concurs with the intent of this recommendation. The National Preparedness Directorate
             (NPD), the Fedeml Emergency Management Agency (F EMA) entity responsible fo r the homeland
             security strategy (HSS) and its guidance, pions to releose updoted guidance on strategic planning by
             January 2013 . FEMA 's Grant Progmms Directorate (GPO) will requi re the Rhode Is land Emergency
             Management Agency (KlEMA) Director to revise Rhode Island's HSS to comply with revised




www.oig.dhs.gov                                                    18                                                               OIG-13-16
                                    OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security




              guidelines developed by NPD. FEMA believes this satisfies the intent of the recommendation and
              requests that this recommendation be resolved and open pending revision of Rhode Island's
              Homeland Security Strategy.

              Recommendation #2.
              Expedite the development of adequate performance measures to assist the Rhode Island Emergency
              Management Agency with measuring and assessing all of the State's capabilities and preparedness.

              FEMA Response Recommendation #2:
              FEMA concurs with the intent of this recommendation. The FEMA NPD is currently developing
              processes to measure core capabilities in accordance with the National Preparedness Goal pursuant
              to PPD-S. The State will complete the Threat and Hazard Identification and Risk Assessment
              (THlRA) and submit it to FEMA by December 31, 2012. The THlRA ~il1 be used to create a
              baseline and targets for Fiscal Year 2013 and beyond. FEMA has also redesigned the State
              Preparedness Report that will help states demonstrate and track preparedness improvement over
              time. FEMA requests that the recommendation be resolved and open pending completion of the
              stated corrective action.

              Recommendation #3:
              Require the Rhode Island Emergency Management Agency to provide training to subgrantecs on
              how to use and comply with Federal, State, and local procurement and inventory requirements.

              Recommendation #4:
              Require the Rhode Island Emergency Management Agency to ensure that subgrantees develop and
              sustain an inventory control system in accordance with Federal requirements.

              FEMA Response to Recommendations #3 and #4:
              FEMA concurs with both recommendations. FEMA GPD will require the RlEMA Director to
              develop and implement a property management and inventory Standard Operating Procedure (SOP)
              within 90 days of receipt of this report. The SOP will adhere to procedures set forth in 44 CFR13.32
              as well as State government policies and procedures. The implementation plan for this SOP must
              involve training for subgrantees. To further support the subgrantees RJEMA will be required to
              develop resources that will assist subgrantees in their compliance with Federal, State and local
              procurement requirements. FEMA requests these recommendations be resolved and open pending
              implementation of the stated corrective actions.

              Recommendation #5:
              Require the Rhode Island Emergency Management Agency to develop a program monitoring
              schedule and plan to focus monitoring efforts on active grants.

              Retommendation ft6:
              Require the Rhode Island Emergency Management Agency to conduct onsite monitoring of grants to
              correct deficiencies pertaining to procurement and inventory noncompliance with Federal, State, and
              local grant requirements.




www.oig.dhs.gov                                             19                                                       OIG-13-16
                                    OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security




              FEMA Response to Recommendations #S and #6:
              FEMA concurs with both recommendations. FEMA GPD will require the RIEMA Director to submit
              a revised HSGP monitoring policy to GPD ",ithin 90 days of receipt of this report. The updated
              policy should include:

                     a.) a clear method for selecting subgrantees for desk monitoring and onsite visits;

                     b.) the number or frequency of monitoring visits each year for both SHSP (State Homeland
                         Security Program) grants and UASI (Urban Area Security Initiative) grants;

                     c.) a sample monitoring schedulc to cncompass the next 12 months;

                     d.) the protocols to be followed during the monitoring visits, including the materials and
                         processes to be reviewed; and

                     e.) a process for documenting and resolving any deficiencies identified.

              FEMA requests these recommendations be resolved and open pending implementation of the stated
              corrective actions.

              Again, we thank you for the opportunity to provide comments concerning this report. Please contact
              Audit Liaison Gina Norton at 202-646-4287. regarding further questions or concerns.




www.oig.dhs.gov                                              20                                                    OIG-13-16
                                        OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security


   Appendix C
   State of Rhode Island Management Comments to the Draft Report


                                           STATe OF RIIOD!! ISLAND AND PROVIDENCE I'I..AN'l"ATIONS




             MILITARY STAFF                                                                            Ul''<:OI. N D. CUAFEE
             EMERGE'JCY MAl AGEMENT AGENCY
                                                                                                      Me; [('EYn'I R. Mo:;BRIOti P.E
             645 New London A venue
             Cra nston, RI 02920·3091
                                                                                                       TlIEllESIt. C. MlJ!UtAY
             (40 1)946-9996

                  MEMORANDUM FOR:                 Elizabeth M. Hannan Assistant
                                                  Administrator Grant Programs
                                                  D irectorate
                                                  Federal Emergency Management Agency

                  Through:                         Mark Bell
                                                   Deputy Assistant
                                                   inspector General of Audits


                  Date:                            October 12, 2012


                  The State ofRr is in receipt of your letter dated August 16,2012 concerning the Office of
                  Inspector General (OlG) findings and recommendations relating to the State or Rhode Island's
                  Management of the State Homeland Security Program and Urban Areas Security Initiative
                  Grunts Awarded during Fiscal Years 2008 through 2010.

                  We appreciate the outreach and effort of the OIG which has enhanced our administration ofthe
                  State Homcland Security GI'allt IJrogram. l1lease reference the below responses to each
                  recommendation as required in your letter. We look forward to hearing from you relative to oW'
                  response, and will endeavor to ensure better compliance wilh the program.


                  Recommendation # I :

                  Assist the Rhode Island Emergency Management Agency with revising the Slate
                  Homeland Security Stnltegy to include----

                         Speci fi c, measurabl e, and results-oriented objectives in compliance with the most recent
                  DHS guidance; and
                         Objective completion dates that nre consistently Listed in the strategies and are current
                  and realistic for achieving each objecti ve.

                  Based on our audit work. wc understand that R1EMA submittcd and FEMA accepted Rhode
                  Island's State Homeland Security Strategy. Although FEMA guida.nce requires that the strategy
                  include specific, measurable and results-oricntcd objcctives, FEMA has not brought thi s


                  Tel: (401) 946-9996                     F.x: (40 1) 944- 189 1                     www.ricm3 .ri .gov




www.oig.dhs.gov                                                    21                                                                  OIG-13-16
                                      OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security



                  requirement to the attention of RlEMA and has not reviewed their strategy to ensure that it meets
                  these FEMA requirements. TIle intent of recommendation #1 is for FEMA to begin providing
                  oversight to ensure that Siale Homeland Security Strategies, like Rhode Island's, meet the FEMA
                  requi rements.


                  RlEMA Respollse

                  We agree with this response. We were in compliance with the gI"'dllt requirements to submit a
                  state strategy however wil Lconcede the strategy could have had more specific, measurabl e and
                  results-oriented objectives and needs updating. The current State Homeland Security strategy
                  that was submitted in 2009 was reviewed and approved by multiple Stute Agencies and FEMA.
                  The State had begun the process of updating the Strategy. 'Ole plan update will now be deLayed
                  until after NPD releases their updated guidance on strategic planning in early 2013 . 'This plan
                  update wi ll review and incorporate the recommendations that were specified in this report.
                  These include 1) specific, measurable, and results-oricnted objectives in compliance with the
                  most recent DHS guidance, and 2) objective completion dates tbat are consistently listed in the
                  strategies and arc current and realistic for achieving each objective.


                  Recommendation #2:

                  Expedite the development of adequate perfomlance measures to assist the Rhode Island
                  Emergency Management Agency with measuring and assessing all of the State's capabilities and
                  preparedness.


                  RIEMA KespoII:"c

                  We agree with this response, however, this requirement was nOI explicit and the Stale struggled
                  with FEMA as different measurement systems came in wcnt throughout the aforementioned
                  grant years. For example, RJEMA did participate in the Cost to Capabilities "C2C pilot
                  program. The State of Rhode Island ocgan implementing performance measures for all
                  agencies in SFY 2012. The RJ Emergency Management Agency was required to develop
                  perfonnance measures for all of i lS programs. While the measures currcntly being implemented
                  look at programs and projects, it docs not specifically offer in depth analysis of each projects
                  impact. RlEMA wi ll fonow the recommendation and look: into developing more adequate
                  perfonnancc measures to assist with measuring and assessing a1l of the Statc's capabilities and
                  preparedness. RlEMA will continue to work with the State Depm1ment of Administration on tlus
                  project.


                  Recommendal'ion #3:

                  Require the Rhode Island Emergency Management Agency to provide training to sub grantees
                  on how (0 use and comply with Federal. State. and local procurement and inventory
                  requirements.




                  Tel: (40 1) 946-9996                  Fax: (40 1) 944- 189 1                   wwwrjema.ri.gov




www.oig.dhs.gov                                                22                                                     OIG-13-16
                                     OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security



                  RlE'MA Respollse
                  We agree with thi s findi ng. Rhode Island Emergency Management Agency has developed and
                  instituted a new policy regarding the notification and distribution of non-di saster grants. RLEMA
                  will no longer mail sub.gramccs their grant awards and gmnt packets. RJEMA will require sub-
                  grantees to attend a workshop on complying with Federal, State, a nd local procurement and
                  inventory requircments in ordcr to rcceive their grant awards and grant handbooks. RIEMA will
                  increase the monitoring of open grants to provide technical assistance to sub grantees in the areas
                  of procurement regulations and inventory recording and control. This will be done through the
                  newly established grants calendar e1aboratcd upon in item #5.


                  Recommendation #4:

                  Require the Rhode Island Emergency Management Agency to ensure that sub grantees develop
                  and sustain an invelltory control system in accordance with Federal requiremenlS.


                  RJEMA Response

                  We agree with this finding. ProPClty records will be maintained to include all required
                  infonn3tion, in addition to current information gnthered, RIEMA w ill include the Stnte Bur
                  Code, Wasp Generated Bar Code, and RlEMA Bar Code to Cross Reference. Also the
                  [)ercentage of Federal Funds used and the "Purchased with funds provided by the U.S.
                  Department of Homeland Security" Label will be added. RIEMA's Purchasing Department wilJ
                  ensure that the inventOI'Y Contro l Manager receives advance copies of aU purchase orders
                  generated to cross walk control of the properly ordered.
                  A wall to wal l physical Inventory of properly was conducted by Rhode Island Accounts and
                  Control in May of2011, and is currently tracked by RIEMA's Fiscal Department. A RlEMA
                  inventory will be conducted in November 2012 to account for all RIEMA property. 'Il lis will be
                  placed in newly purchased proprietary data base software called WASP MobiJe Asset Tnventory
                  Control Software.

                  RlEMA has an Asset Inventory Procedure (#500.0 1IEMAP Reference 4.8.1) and will implement
                  I October 2012. The Procedure wi ll create a policy and procedure to receive, tmck, and maintain
                  a perpetual inventory of property. A RffiMA inventory has becn established aud is currently
                  tracked on a Spread Sheet and controlled by the Logistics Manager.
                  RJEMA sub grantees currently report all equipment purchas~ in an ext,;t:1 fu nnal. This report
                  will be forwa rded to the inventory control manager [or assimilation into one large spreadsheet.
                  On-going ed ucational efforts with sub grantee's continues concerning inventory disc ipline.
                  Fiscal and grant staff will be retrained and instructed to work closely with sub-grantees prior to
                  the reimbursement process to ensure compliance with federa l requirements. Staff will stress
                  inventory control sheets and labeling of all equipment.

                  Recommendation 115:

                  Require the Rhode Island Emergency Managemcnt Agcncy to develop a program monitoring
                  schedule and plan to focus monitoring efforts on active grants.




                  Tel: (401) 946-9996                    Fax: (401) 944- 1891                      www.riema.ri..&.o~




www.oig.dhs.gov                                               23                                                        OIG-13-16
                                    OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security



                  We understand that RIEMA conducts on·site monitoring of active grants. However, their
                  monitoring of active grants is conducted on an ad hoc basis. The intent of recommendation #5 is
                  for FEMA to require RlEMA to establish a fonna1 active grant monitoring schedu le. such as an
                  annual schedule.


                  RJEMA RespoIJse

                  We agree with this rmding. RrEMA will developed and institute a fonnal yearly calendar of
                  scheduled s ite monitoring for sub recipients. Rhode Island Emergency Management Agency
                  currently has a lormal monitoring policy that has been reviewed by FEMA and meets Federal
                  requirements. RIEMA grant stan~ monitoring of active and closed grants is ongoing and we will
                  attempt increase the monitoring commensurate with tbc limited time and staff available.
                  Random site and desk audits will continue but more [oeus will be placed on schedul ing of a cross
                  section on grants to ensure 10% of a11 grants are monitored to meet compliance.

                  Recommendation #6:

                  Require the Rhode Island Emergency Management Agency to conduct onsite monitoring of
                  grants to correct deficiencies pertaining to procurement and inventory noncompliance with
                  Federal, State, and local srant n-qu
                                                   . irements.

                  We understand that RlEMA conducts on·site monitoring of active grants. However, during our
                  audi t we found deficiencies pertaining to procurement and inventory noncompl iance. The intent
                  of recommendation #6 is for FEMA to require RlEMA to conduct onsite monitoring that wouJd
                  help correct the deficiencies we found immediately.


                  RIEMA R~l'o n se
                  We agree with this finding. We intend on enhancing our effort of enforcement through better
                  educati on and more mon itoring of the sub recipients specially in tJle areas of purchasing and
                  inventory control. Rhode Island Emergency Management Agency has conducted onsite
                  monitoring of grants to COITect deficiencies pertaining to procurement and inventory
                  noncompliance with Federal, State, and local grant requiremcnts. Sub· grantees are understaffed
                  and underfunded and sometimes unable to meet tbe inventory compliance issues such as labeling
                  of equipment to give credit to the program providing the funding. RIEM A bas made efforts to
                  reach out to sub grantees to COITCct and enforce th is deficiency through on·site monitoring.

                  If you have any questions, or need additional illfonnation, please contact our Grants Manager,
                  Richard Jones at 401-462-7 l 07. or ricky,joncs@us,anny.mil.


                  Sincerely,



              - RiCh:;Ml0
                  GrantA~tor
                  RJ Emergency Management Agency


                  Tel: (401) 946-999(,                  Fax:(40 1)944- 189 1                     www rjcma rj gov




www.oig.dhs.gov                                              24                                                       OIG-13-16
                            OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


   Appendix D
   Description of Homeland Security Grant Program
   The HSGP provides Federal funding to help State and local agencies enhance capabilities
   to prevent, deter, respond to, and recover from terrorist attacks, major disasters, and
   other emergencies. The HSGP encompasses several interrelated Federal grant programs
   that together fund a range of preparedness activities, including planning, organization,
   equipment purchase, training, and exercises, as well as management and administration
   costs. Programs include the following:

   •	 The State Homeland Security Program provides financial assistance directly to each
      of the States and Territories to prevent, respond to, and recover from acts of
      terrorism and other catastrophic events. The program supports the implementation
      of the State Homeland Security Strategy to address identified planning, equipment,
      training, and exercise needs.

   •	 The Urban Areas Security Initiative provides financial assistance to address the
      unique planning, equipment, training, and exercise needs of high-risk urban areas,
      and to assist in building an enhanced and sustainable capacity to prevent, respond
      to, and recover from threats or acts of terrorism and other disasters. Allowable
      costs for the urban areas are consistent with the SHSP. Funding is expended based
      on the Urban Area Homeland Security Strategies.

   The HSGP also includes other interrelated grant programs with similar purposes.
   Depending on the fiscal year, these programs include the following:

   •	 Metropolitan Medical Response System
   •	 Citizen Corps Program
   •	 Operation Stonegarden (applicable only for FY 2010)

   �




www.oig.dhs.gov                              25                                 	    OIG-13-16
                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


   Appendix E
   Major Contributors to This Report
   Patrick O’Malley, Director
   Shelley Howes, Audit Manager
   John Jadick, Program Analyst
   Megan McNulty, Program Analyst
   Kristine Odiña, Program Analyst
   Kevin Donahue, Independent Referencer




www.oig.dhs.gov                            26                  OIG-13-16
                           OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


   Appendix F
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Acting Chief Privacy Officer
   FEMA Administrator
   FEMA Assistant Administrator for the National Preparedness Directorate
   FEMA Liaison

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                             27                              OIG-13-16
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
